 Report No. D-2009-073       April 8, 2009




  DoD Components' Use of Global War on Terror
Supplemental Funding Provided for Procurement and
   Research, Development, Test, and Evaluation
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas and
requests can also be mailed to:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
AFAA                          Air Force Audit Agency
FMR                           Financial Management Regulation
GAO                           Government Accountability Office
GWOT                          Global War on Terror
IG                            Inspector General
OUSD(C)                       Office of the Under Secretary of Defense (Comptroller)
RDT&E                         Research, Development, Test, and Evaluation
SOP                           Standard Operating Procedure
DISTRIBUTION:

UNDER SECRETARY OF DEFENSE (COMPTROLLER)/DoD CHIEF FINANCIAL
   OFFICER
COMMANDER, U.S. SPECIAL OPERATIONS COMMAND
CHIEF, NATIONAL GUARD BUREAU
ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL MANAGEMENT
   AND COMPTROLLER)
SPECIAL ASSISTANT FOR CHEMICAL BIOLOGICAL DEFENSE AND
   CHEMICAL DEMILITARIZATION PROGRAMS
DIRECTOR, DEFENSE INFORMATION SYSTEMS AGENCY
DIRECTOR, MISSILE DEFENSE AGENCY
DIRECTOR, WASHINGTON HEADQUARTERS SERVICE
AUDITOR GENERAL, DEPARTMENT OF THE ARMY
NAVAL INSPECTOR GENERAL
                 Report No. D-2009-073 (Project No. D2006-D000AE-0241.002)
                                        April 8, 2009

            Results in Brief: DoD Components’ Use of
            Global War on Terror Supplemental Funding
            Provided for Procurement and Research,
            Development, Test, and Evaluation
                                                       and Comptroller); the Deputy Commandant for
What We Did                                            Programs and Resources, Headquarters Marine
We reviewed 130 sample dollar points                   Corps; and the Director, Financial Management
associated with Global War on Terror                   Directorate, Washington Headquarters Service
supplemental and bridge funds provided to the          draft and finalize standard operating procedures
Army, Navy, Marine Corps, Defense-wide                 for reporting investment contingency operations
agencies, National Guard, and Reserve                  costs that include a requirement that budget
Components to determine whether the funds              officers separately identify supplemental, bridge,
were obligated for the efforts stipulated by           and annual appropriated funds in their
Congress and used in support of the Global War         accounting systems and follow procedures
on Terror.                                             requiring that financial transactions be traceable
                                                       to individual source records.
What We Found
Of the 130 sample points, we could not                 Management Comments and
determine whether 59 sample dollar points,             Our Response
associated with $6.23 billion in appropriated          The Assistant Secretary of Army (Financial
funds, were obligated for the purposes                 Management and Comptroller) and Director
authorized by Congress or used in support of the
                                                       Washington Headquarters Service agreed with
Global War on Terror. We concluded that the
                                                       the recommendations. The Director,
Office of the Under Secretary of Defense
                                                       Investments Directorate, Office of the Under
(Comptroller) and four DoD Components (the             Secretary of Defense (Comptroller) and
Army, the Navy, the Marine Corps, and the              Commandant of the Marine Corps, Headquarters
Washington Headquarters Service) did not
                                                       Marine Corps agreed with recommendations;
consistently maintain adequate audit trails or
                                                       however, their comments were only partially
separate Global War on Terror supplemental and
                                                       responsive. The Assistant Secretary of the Navy
bridge funding from annual and other
                                                       (Financial Management and Comptroller)
supplemental appropriations in their accounting        disagreed with recommendations addressed to
systems.                                               the Navy and Marine Corps. We request that the
                                                       Director, Investments Directorate, Office of the
What We Recommend                                      Under Secretary of Defense (Comptroller); the
We recommend that the Office of the Under              Assistant Secretary of the Navy (Financial
Secretary of Defense (Comptroller)/DoD Chief           Management and Comptroller); and the
Financial Officer follow procedures requiring          Commandant of the Marine Corps, Headquarters
that financial transactions be traceable to            Marine Corps provide additional comments on
individual source records. We also recommend           Recommendations 1., 3., and 4., respectively, by
that the Director, Investments Directorate,            May 8, 2009.
Assistant Secretary of the Army (Financial
Management and Comptroller); the Director,
Office of Budget, Operations Division, Assistant
Secretary of the Navy (Financial Management


                                                   i
                Report No. D-2009-073 (Project No. D2006-D000AE-0241.002)
                                       April 8, 2009

Recommendations Table
Management                           Recommendations         No Additional Comments
                                     Requiring Comment       Required
Director, Investments Directorate,   1.
Under Secretary of Defense
(Comptroller)
Assistant Secretary of the Army                              2.a., 2.b.
(Financial Management and
Comptroller)
Assistant Secretary of the Navy      3.
(Financial Management and
Comptroller)
Commandant of the Marine             4.
Corps, Headquarters Marine
Corps
Director, Washington                                         4.
Headquarters Services

Please provide comments by May 8, 2009.




                                             ii
Table of Contents

Results in Brief                                                      i

Introduction                                                          1

       Objectives                                                     1
       Background                                                     1
       Review of Internal Controls                                    4

Finding. DoD Financial Controls Over Global War on Terror Spending    5

       Management Actions                                            9
       Management Comments on the Finding and Appendices and
         Our Response                                                 9
       Recommendations, Management Comments, and Our Response         9

Appendices

       A. Scope and Methodology                                      15
              Prior Coverage                                         18
       B. Sampling Methodology                                       21
       C. Apportionment Process for Supplemental and Bridge Funds    26
       D. Glossary                                                   29
       E. Management Comments on the Finding and Appendices
             and Our Response                                        31

Management Comments

       Office of the Under Secretary of Defense (Comptroller)        35
       Department of the Army                                        53
       Department of the Navy                                        55
       Marine Corps                                                  57
       Washington Headquarters Services                              62
THIS PAGE LEFT INTENTIONALLY BLANK
Introduction
Objectives
The primary audit objective was to evaluate the adequacy of Army, Navy, Marine Corps,
Defense-wide agencies, National Guard, and Reserve Components financial controls over
the use of Global War on Terror (GWOT) supplemental and bridge funding provided for
procurement and research, development, test, and evaluation (RDT&E). We also
determined whether the funds were placed on contracts and used for the purposes
stipulated by Congress. See Appendix A for a discussion of the scope and methodology
and prior coverage related to the audit objectives.

Background
This report is the last in a series of reports on the adequacy of DoD financial controls
over the use of GWOT supplemental funding provided for procurement and RDT&E.
This report addresses the adequacy of the Army, Navy, Marine Corps, Defense-wide
agencies, National Guard, and Reserve Components financial controls over the use of
GWOT funding provided for procurement and RDT&E. The first report addressed the
Air Force’s financial controls for issuing, identifying, and using GWOT supplemental
funding. The second report addressed the internal controls for preparing the DoD
Supplemental and Cost of War Execution Report pertaining to obligations of
procurement and RDT&E funds.

Global War on Terror
Following the terrorist attacks of September 11, 2001, the United States initiated military
operations to combat terrorism in the United States, Iraq, and Afghanistan. Military
operations related to Iraq and Afghanistan are known as Operation Iraqi Freedom and
Operation Enduring Freedom, respectively. Efforts to defend the United States from
airborne attacks and to maintain United States air sovereignty are referred to as Operation
Noble Eagle. The audit team referred to these three operations collectively as GWOT.

Funding Provided for the Global War on Terror
The Office of the Under Secretary of Defense (Comptroller) (OUSD[C]) considers
GWOT a contingency operation and requests funding from Congress for GWOT through
supplemental and bridge appropriations. In response to DoD requests for GWOT funding
to cover the costs associated with conducting operations in support of GWOT, Congress
enacts supplemental and bridge appropriations. Supplemental appropriations are
additions to regular annual appropriations and provide budget authority beyond the
original estimates for programs or activities that are too urgent to be postponed until the
next regular appropriation. Bridge funds are funds contained within an annual
appropriation to cover contingency operations costs for the coming fiscal year. From
August 2002 through December 2005, Congress provided the DoD $28.69 billion in
supplemental and bridge funding for unclassified procurement and RDT&E activities.




                                             1
The Air Force received $1.50 billion of the $28.69 billion. The following table shows
how much of the remaining $27.19 billion the other DoD Components received for
procurement and RDT&E.

 Table 1. Funding for the Global War on Terror August 2002 through
December 2005

                                            Procurement                     RDT&E
         DoD Components
                                            ($ in billions)              ($ in millions)
 Army                                           $17.62                     $65.17
 Navy                                             1.45                       52.39
 Marine Corps                                     5.26                        0
 Defense-wide agencies                            1.52                     173.10
 National Guard and Reserve
 Components                                       1.05                       0
   Total                                        $26.90                    $290.66

Apportionment Process
According to an OUSD(C) representative, the OUSD(C) issues an apportionment request
for supplemental funding to the Office of Management and Budget. In addition, the
OUSD(C) representative stated that the Office of Management and Budget reviews and
approves the request and forwards it to the OUSD(C) Investment Directorate for
disbursement of the funds to the DoD Components. A flowchart of the OUSD(C)
apportionment process can be found in Appendix C of this report.

Cost of War Reporting
According to Government Accountability Office (GAO) Report No. GAO-05-882,
“Global War on Terrorism: DoD Needs to Improve the Reliability of Cost Data and
Provide Additional Guidance to Control Costs,” September 2005, the DoD tracks
obligations made to support GWOT and develops a monthly Supplemental and Cost of
War Execution Report, which budget officers use to formulate future budget requests to
fund GWOT and senior DoD leadership uses to discuss the cost of war. This cost of war
report identifies the monthly and cumulative GWOT obligations by Service, Defense
agency, contingency operation, and appropriation. Using these reports, the Comptroller
General of the United States provides Congress with quarterly updates on the costs of the
war.

Statistical and Judgmental Samples
We statistically sampled approximately $28.69 billion in supplemental and bridge funds
provided to the DoD from August 2002 through December 2005 for unclassified
procurement and RDT&E activities to determine whether the DoD Components placed
the funds on contracts for the purposes stipulated in congressional legislation. The
statisticians in the Quantitative Methods and Analysis Division designed and selected a
random sample of 600 dollar points from the universe of $28.69 billion in supplemental
and bridge funds provided to DoD for procurement and RDT&E. After our review of the
28 Air Force sample dollar points and based on the preliminary results of our review of

                                            2
the other DoD Components, we revised the audit scope and conducted a judgmental
sample from the remaining sample dollar points selected in the statistical sample. We
selected 158 sample dollar points, including the 28 Air Force sample dollar points, in the
judgmental sample. This report discusses the remaining 130 sample dollar points
selected in the judgmental sample. A detailed description of the sample methodology can
be found in Appendix B of this report.

DoD Components’ Results
The following table shows the results of our review of the 130 sample dollar points
associated with GWOT supplemental and bridge funding provided to the Army, Navy,
Marine Corps, select Defense-wide agencies, National Guard, and Reserve Components.

             Table 2. Results of DoD Components’ Sample Dollar Point Review

                                             Number           Obligated for the
                                                of           Purposes Stipulated1
           DoD Components                    Sample         and Used in Support of             Not Obligated
                                              Dollar               GWOT
                                              Points          Yes         No        Ind.2
    Army                           60                         17          0          43                0
    Navy                            3                          1          0           2                0
    Marine Corps                   40                         27          0          13                0
    Defense-wide agencies
     U.S. Special Operations
     Command                        4                           3          0          0                1
     Chemical and Biological
     Defense Office                 1                           1          0          0                0
     Defense Information
     Systems Agency                 1                           1          0          0                0
     Missile Defense Agency         1                           1          0          0                0
     Washington Headquarters
     Service                        1                           0          0          1                0
    National Guard and Reserve Components
     Army National Guard           11                          10          0          0                1
     Air National Guard             6                           53         0          0                1
     Army Reserves                  2                           2          0          0                0
       Totals                     130                          68          0         59                3
1
    This objective refers to whether sample dollar points were obligated for the purposes stipulated
    by Congress in the supplemental and bridge appropriations.
2
    Indeterminable sample dollar points are those for which we could not determine whether the
    supplemental and bridge funds were obligated for the purposes stipulated by Congress or
    supported GWOT.
3
    Air National Guard budget officers used the bridge funds for the five sample dollar points for
    homeland defense and hurricane recovery efforts, which were congressionally directed.



                                                       3
Of the 130 sample dollar points, only 2 sample dollar points were associated with
RDT&E funding, the remaining 128 sample dollar points were associated with
procurement funds. See the finding for a discussion of the Army, Navy, Marine Corps,
and Washington Headquarters Service financial control weaknesses we identified during
our review of the sample dollar points. We determined that the Army, Navy, and Marine
Corps sample dollar points not addressed in the finding discussion were obligated for the
purposes stipulated in congressional language and supported GWOT. In addition, we
determined that the U.S. Special Operations Command, Chemical and Biological Defense
Office, Defense Information Systems Agency, Missile Defense Agency, Army National
Guard, Air National Guard, and Army Reserves sample dollar points were obligated for
the purposes stipulated in congressional language and supported GWOT. Based on the
sample points we reviewed, we determined that the U.S. Special Operations Command,
Chemical and Biological Defense Office, Defense Information Systems Agency, Missile
Defense Agency, Army National Guard, Air National Guard, and Army Reserves
financial controls over the use of procurement and RDT&E supplemental and bridge
funding provided for GWOT were adequate. A description of the methodology the audit
team used to track the sample dollar points from the public laws through to the obligation
documents can be found in Appendix A of this report. For a detailed discussion of the
statistical and judgmental sampling methodologies, see Appendix B.

Review of Internal Controls
We identified internal control weaknesses in the OUSD(C) and the DoD Components’
financial controls over the use of supplemental and bridge funding provided for
procurement and RDT&E, as defined by DoD Instruction 5010.40, “Managers’ Internal
Control (MIC) Program Procedures,” January 4, 2006. Although the internal controls
outlined in the DoD Financial Management Regulation 7000.14-R, volume 1, chapter 3,
“Accounting Systems Conformance, Evaluation, and Reporting,” August 2000,1 and
volume 12, chapter 23, “Contingency Operations,” September 2005,2 were adequate for
maintaining audit trails and for capturing costs associated with contingency operations,
the OUSD(C) and DoD Components did not consistently follow them for the sample
dollar points we reviewed. Implementing the recommendations in this report will
improve financial and internal controls so that the DoD Components can accurately
report on the cost of the war. We will provide a copy of this report to the senior official
responsible for internal controls in the OUSD(C) and DoD Components reviewed.




1
  DoD FMR 7000.14-R, volume 1, chapter 3, was updated in September 2007. The criteria found in
volume 1, chapter 3 was subsequently incorporated into volume 6A, chapter 2 and contains the same
requirements as the previous version. This update did not affect the results of our audit .
2
  The audit team used the September 2005 version of the FMR. The September 2007 update version
contained the same criteria that we used. This update did not affect the results of our audit.

                                                   4
Finding. DoD Financial Controls Over Global
War on Terror Spending
The OUSD(C) and four DoD Components (Army, Navy, Marine Corps, and Washington
Headquarters Service) financial controls over the use of procurement and RDT&E
supplemental and bridge funding provided for GWOT need improvement. The financial
controls over GWOT funding need improvement because the OUSD(C) and DoD
Components did not ensure compliance with DoD Financial Management Regulation
(FMR) procedures. Specifically:

      the OUSD(C) and DoD Components did not follow procedures for establishing
       audit trails, and

      the DoD Components did not follow procedures for capturing costs associated
       with contingency operations.

As a result, the DoD Components did not have adequate internal controls to verify that
funds placed on contracts were used for the purposes stipulated in the congressional
language, which authorized the supplemental and bridge funding for GWOT. Further,
the DoD Components could not accurately report to Congress their progress in obligating
GWOT funds.

DoD and Office of Management and Budget Guidance
for Audit Trails, Capturing Costs, and Internal Controls
DoD FMR 7000.14-R, volume 1, chapter 3, and volume 12, chapter 23, and Office of
Management and Budget Circular A-123, “Management’s Responsibility for Internal
Control,” December 21, 2004, provide guidance on establishing audit trails, accounting
for funds provided for contingency operations, and management’s responsibility for
internal control, respectively.

DoD Financial Management Regulation on Audit Trails
The FMR requires that financial transactions within the accounting system must be
adequately supported with pertinent documents and source records. In addition, it states
that all transactions, including those that are computer-generated and computer-
processed, must be traceable to individual source records. The FMR states that the
adequacy of an audit trail can be tested by tracing a transaction forward from the source
or back from the result and verifying the amount recorded or reported.

DoD Financial Management Regulation on Contingency
Operations
The FMR requires that costs incurred in support of contingency operations be properly
identified and recorded through the use of controls, accounting systems, and procedures.
It states that each Service Component command should collect all applicable costs related
to specific contingency operations. To do this, the FMR specifies that, upon being
                                            5
alerted of an impending contingency operation, each participating DoD Component
should establish a unique special program code to capture costs. To ensure that the costs
of contingency operations are accurately reported, the FMR further states that each DoD
Component will develop and publish a standard operating procedure (SOP) or other
supplemental guidance to cover Component-specific items for cost reporting and
disseminate that guidance to the appropriate subordinate organizations.

Office of Management and Budget Circular A-123
Office of Management and Budget Circular A-123 identifies the objectives of internal
control as “effectiveness and efficiency of operations, reliability of financial reporting,
and compliance with applicable laws and regulations.” The Circular states that
management has a fundamental responsibility to develop and maintain effective internal
controls. The Circular requires that effective internal controls over financial reporting
provide reasonable assurance that misstatements, losses, or noncompliance with
applicable laws and regulations, material in relation to financial reports, would be
prevented or detected.

Sample Results
In reviewing 104 sample dollar points at the 4 DoD Components, we identified internal
control weaknesses with the OUSD(C) and these DoD Components’ accountability and
reporting of GWOT costs. The OUSD(C) did not consistently follow procedures for
establishing an audit trail needed to track GWOT supplemental and bridge funds
provided for procurement activities to the DoD Components. Specifically, the OUSD(C)
did not separate conference report line items when issuing funds to three of the DoD
Components. Similarly, the DoD Components did not maintain an audit trail or separate
supplemental, bridge, and annual funds in their accounting systems. As a result, we were
unable to determine whether the 4 DoD Components used supplemental and bridge funds
for 59 of the 104 sample dollar points, associated with $6.23 billion in appropriated
funds, for the purposes authorized by Congress or in support of GWOT. The following
summarizes the results of our review.

Army
Army budget officers either did not maintain an audit trail or did not separate
supplemental and bridge funds from annual and other supplemental funds in their
accounting systems to track funds to obligation documents for 38 of the 60 Army sample
dollar points we reviewed. Specifically, for:

      34 of the 38 sample dollar points, associated with $2.63 billion in appropriations,
       Army budget officers at the program offices did not differentiate GWOT
       supplemental and bridge funds from annual funds in the accounting system;

      1 of the 38 sample dollar points, associated with $344.69 million in
       appropriations, the Army budget officer at the program office did not separate
       GWOT supplemental funds from other supplemental funds in the accounting
       system; and



                                             6
      3 of the 38 sample dollar points, associated with $302.55 million in
       appropriations, Army budget officers at the Office of the Assistant Secretary of
       the Army (Financial Management and Comptroller) did not maintain an audit trail
       to show which Army program offices received the GWOT supplemental funds.

In addition, the OUSD(C) combined supplemental and bridge funds for multiple
conference report line items on funding documents issued to the Army for 5 of the
60 Army sample dollar points we reviewed. Specifically, the OUSD(C) combined
GWOT supplemental and bridge funds for different conference report line items on the
funding documents issued to the Army for four of the five sample dollar points,
associated with $1.29 billion in appropriations. For the remaining sample dollar point,
associated with $42.2 million in appropriations, the OUSD(C) did not maintain an
adequate audit trail to show which Army program received GWOT bridge funds.

Navy
At one program office, the Navy budget officer did not separate GWOT supplemental
funds from annual funds in the accounting system for one of the three Navy sample dollar
points we reviewed, associated with $262 million in appropriations. In addition, the
OUSD(C) combined different conference report line items together on the funding
document issued to the Navy for another of the three Navy sample dollar points,
associated with $15.9 million in appropriations. Subsequently, when the Navy issued the
bridge funds to the program office, the program office loaded the bridge funds into the
accounting system the same way they received them and combined bridge funds for two
conference report line items.

Marine Corps
Marine Corps budget officers at program offices did not separate GWOT supplemental
and bridge funds from annual and other supplemental funds in the accounting system for
10 of the 40 Marine Corps sample dollar points we reviewed. Specifically, Marine Corps
budget officers combined GWOT supplemental and bridge funds with annual funds in the
accounting system for 9 of the 10 dollar points, associated with $897.29 million in
appropriations. For the other sample dollar point, associated with $72 million in
appropriations, Marine Corps budget officers combined bridge funds with supplemental
funds in the accounting system. In addition, OUSD(C) combined bridge funding for
multiple conference report line items on funding documents provided to the Marine
Corps for another 3 of the 40 sample dollar points, associated with $376.7 million in
appropriations.

Washington Headquarters Service
Washington Headquarters Service budget officers did not separate GWOT supplemental
funds from annual funds in the accounting system for the one sample dollar point
associated with $25.2 million in appropriations that we reviewed.




                                            7
Capturing Costs Associated With Contingency
Operations
We were unable to determine the use of the supplemental and bridge funds for
59 sample dollar points because the OUSD(C) and four DoD Components did not follow
existing procedures for establishing audit trails and capturing contingency operations
costs to include using special program codes to capture those costs, as required in the
DoD Financial Management Regulation. A discussion of the breakdown in the internal
controls at OUSD(C) and the four DoD components follows.

Office of the Under Secretary of the Defense Comptroller
The OUSD(C) did not consistently separate supplemental and bridge funds for
conference report line items when it disbursed funds to the DoD Components and did not
adhere to the FMR requirement for establishing audit trails so that financial transactions
are traceable to individual source records. From a financial management and
congressional reporting perspective, the DoD Components need to have the GWOT funds
separated by conference report line item in order to prepare DoD annual budget
justification materials and to meet congressional reporting requirements.

Army
The Office of the Assistant Secretary of the Army (Financial Management and
Comptroller) did not issue guidance for capturing procurement and RDT&E costs to
support contingency operations or require Army budget officers to establish and use
special program codes in their accounting systems to differentiate between the use of
supplemental, bridge, and annual funds. In addition, budget officers did not adhere to the
FMR requirement that DoD Components maintain an audit trail so that financial
transactions are adequately supported with pertinent documents and traceable to source
records.

Navy
The Office of the Assistant Secretary of the Navy (Financial Management and
Comptroller) did not issue guidance for capturing contingency operation costs or require
Navy budget officers to use special program codes to differentiate between the use of
supplemental and annual funds in their accounting systems.

Marine Corps
The Programs and Resources Department, Headquarters Marine Corps established
guidance requiring Marine Corps budget officers to use special interest codes to capture
costs associated with GWOT. However, the guidance did not require Marine Corps
budget officers to separate supplemental, bridge, and annual funds in the accounting
system. Because supplemental, bridge, and annual funds were not separated in the
accounting system, we could not trace the funds from the accounting system to source
documents to determine how the supplemental and bridge funds were used.




                                            8
Washington Headquarters Service
The Financial Management Directorate, Washington Headquarters Service did not issue
guidance requiring budget officers to use special program codes to differentiate
supplemental and bridge funds from annual funds in the accounting system.

Effects on Congressional Reporting Requirement
As a result of the OUSD(C) and four DoD Components either not maintaining adequate
audit trails to trace supplemental and bridge funds or not using special program codes to
separate GWOT supplemental and bridge funds in their accounting systems, the Army,
Navy, Marine Corps, and Washington Headquarters Service financial communities did
not have the means to ensure that supplemental and bridge funds placed on contracts
were used for the purposes stipulated in congressional language or supported GWOT.
Consequently, the four DoD Components were not able to track obligations incurred to
support GWOT through the accounting system and could not therefore accurately report
to Congress their progress in obligating supplemental and bridge funds.

Management Actions
Army
The Investments Directorate, Assistant Secretary of the Army (Financial Management
and Comptroller) is drafting SOPs for capturing and reporting procurement and RDT&E
costs in support of contingency operations. The draft guidance states that beginning in
FY 2008, funding authorization documents will include special program codes to indicate
whether the funds are annual or GWOT. The draft guidance does not require Army
budget officers to establish a special program code to differentiate supplemental, bridge,
and annual funds in the accounting system. As of March 2009, the Army had not
finalized the SOPs.

Navy
On September 29, 2008, Office of the Assistant Secretary of the Navy (Financial
Management and Comptroller) issued supplemental guidance for accounting for
contingency operation funds. The guidance, however, does not require the Navy
comptroller and budget personnel to establish unique codes in the accounting systems to
differentiate between annual, supplemental, and bridge funds.

Management Comments on the Finding and Appendices and
Our Response
Summaries of management comments on the finding and appendices of this report and
our responses are in Appendix E.

Recommendations, Management Comments, and
Our Response
1. We recommend that the Under Secretary of Defense (Comptroller)/DoD Chief
Financial Officer consistently adhere to procedures requiring financial transactions

                                             9
to be traceable to individual source records by separating Global War on Terror
supplemental and bridge appropriations by conference report line item on the
funding documents issued to the DoD Components to enable DoD Component
budget officers to obligate, track, and report on their use of Global War on Terror
funds, in accordance with DoD Financial Management Regulation 7000.14-R,
volume 6A, chapter 2, “Financial Reports, Roles and Responsibilities,” November
2008.

Office of the Under Secretary of Defense Comments
The Director, Investments Directorate, OUSD(C) agreed with the report
recommendation, stating that the OUSD(C) has been and will continue to issue funds to
the DoD Components by conference report line item and not by budget line item. He
stated that the annual budget has been and will continue to be issued separately from the
supplemental budget and therefore is traceable to individual source records.

Our Response
We did not assert in the finding that the OUSD(C) combined annual and supplemental
funds when it issued the funds to the DoD Components. The finding stated that
OUSD(C) combined supplemental and bridge funds for different conference report line
items when it issued funds to the DoD Components. Because the OUSD(C) combined
conference report line items into one funding amount, there was no audit trail to permit
transactions to be traced to source documentation. Without an audit trail to facilitate
transparency in the accounting systems, there is no assurance that funds are being used
for the purposes stipulated by Congress and that reports to Congress on GWOT
obligations are accurate. Accordingly, we request that the Director, Investments
Directorate, OUSD(C) provide additional comments to the recommendation in response
to the final report.

2. We recommend that the Director, Investments Directorate, Assistant Secretary
of the Army (Financial Management and Comptroller):

        a. Revise the draft standard operating procedures for the reporting of
investment contingency operations costs, before finalizing, to require Army budget
officers to separately identify supplemental, bridge, and annual appropriated funds
in their accounting systems to enable the budget officers to accurately track and
report obligations against each funding source, to conform with requirements in the
DoD Financial Management Regulation 7000.14-R, volume 12, chapter 23,
“Contingency Operations,” September 2005.

Assistant Secretary of the Army (Financial Management and
Comptroller)
The Acting Assistant Secretary of the Army (Financial Management and Comptroller)
agreed with the recommendation. He stated that the Army is revising its SOPs for
reporting investment contingency operations costs to require the use of accounting codes
that will separately identify funding sources for all investment transactions. The Acting
Assistant Secretary stated that the Army plans to complete the revised SOPs by
December 31, 2008.
                                            10
Our Response
The Acting Assistant Secretary’s comments were responsive to the recommendation;
however, as of March 2009, the Army had not issued the revised SOPs.

       b. Direct Army budget officers to adhere to procedures in DoD Financial
Management Regulation 7000.14-R, volume 6A, chapter 2, “Financial Reports Roles
and Responsibilities,” November 2008, requiring that financial transactions be
traceable to individual source records to enable Army budget officers to obligate,
track, and report on their use of Global War on Terror funds.

Assistant Secretary of the Army (Financial Management and
Comptroller)
The Acting Assistant Secretary of the Army (Financial Management and Comptroller)
agreed with the recommendation. He stated that the Army is working to ensure that the
audit trail measures that are in place for annual funding financial transactions are
replicated for supplemental funding financial transactions. The Acting Assistant
Secretary stated that the Army plans to complete this effort by December 31, 2008.

Our Response
The Acting Assistant Secretary’s comments were responsive to the recommendation;
however, as of March 2009, the Army had not issued the revised SOPs.

3. We recommend that the Director, Office of Budget, Operations Division,
Assistant Secretary of the Navy (Financial Management and Comptroller) finalize
and issue standard operating procedures to require Navy budget officers to
separately identify supplemental, bridge, and annual appropriated funds in their
accounting systems to enable the budget officers to accurately track and report
obligations against each funding source, in accordance with DoD Financial
Management Regulation 7000.14-R, volume 12, chapter 23, “Contingency
Operations,” September 2005.

Assistant Secretary of the Navy (Financial Management and
Comptroller)
The Assistant Secretary of the Navy (Financial Management and Comptroller) did not
agree with the recommendation, stating that his office issued guidance on capturing and
reporting of contingency operation costs in the various Navy accounting systems. Concerned
that the DoD Inspector General (IG) misconstrued the direction and intent of the FMR,
volume 12, chapter 23, the Assistant Secretary stated that the FMR does not require that
supplemental, bridge, and annual appropriated funds be separately identified in the
accounting systems but instead requires DoD to report all incremental costs incurred as part
of a contingency operation, regardless of fund source. The Assistant Secretary stated that
issuing guidance to capture the distribution, obligation, and expenditure of supplemental
funding for contingency operations would result in noncompliance with the FMR and would
not provide an accurate record of the total incremental costs of the contingency operation. In
conclusion, he stated that the Navy’s guidance provides for the reporting and tracking of all
costs, regardless of source.

                                             11
Our Response
On September 29, 2008, the Office of the Assistant Secretary of the Navy (Financial
Management and Comptroller) issued supplemental guidance for accounting and reporting
contingency operations. Although the guidance establishes codes to differentiate between
GWOT contingency operations in the accounting system, it does not require Navy
comptroller and budget personnel to establish unique codes in the accounting systems to
differentiate between annual, supplemental, and bridge funds.

While the FMR, volume 12, chapter 23, does not specifically require the separation of
annual, supplemental, and bridge funds in the accounting system, the FMR does require that
audit trails be established to enable transactions to be traced forward from its source to the
resulting record and back from the resulting record to its source. Therefore, we still
maintain that the Navy needs to separately identify annual, supplemental, and bridge
funds in its accounting systems to enable the budget officers to accurately track and
report obligations against each funding source for each GWOT contingency operation.
Accordingly, we request that the Assistant Secretary of the Navy (Financial Management
and Comptroller) review his office’s position on this recommendation and provide
additional comments in response to the final report.

4. We recommend that the Deputy Commandant for Programs and Resources,
Headquarters Marine Corps and the Director, Financial Management Directorate,
Washington Headquarters Services develop and issue standard operating
procedures to require budget officers to separately identify supplemental, bridge,
and annual appropriated funds in their accounting systems to enable the budget
officers to accurately track and report obligations against each funding source, in
accordance with DoD Financial Management Regulation 7000.14-R, volume 12,
chapter 23, “Contingency Operations,” September 2005.

Assistant Secretary of the Navy (Financial Management and
Comptroller)
The Assistant Secretary of the Navy (Financial Management and Comptroller), assuming
responsibility for both Navy and the Marine Corps financial management, did not agree with
this recommendation for the same reasons he did not agree with Recommendation 3. The
Assistant Secretary stated that the Navy’s policy and procedures, which also apply to the
Marine Corps, are sufficient for capturing and reporting contingency operations costs. In this
regard, he stated that the Deputy Commandant for Programs and Resources, Headquarters
Marine Corps, has the authority to issue further guidance, if necessary.

Our Response
On September 29, 2008, the Office of the Assistant Secretary of the Navy (Financial
Management and Comptroller) issued supplemental guidance for accounting and reporting
contingency operations. Although the Assistant Secretary stated that the Navy’s guidance
applied to the Marine Corps, the guidance clearly states that the Marine Corps issues specific
reporting guidance for its accounting system, the Standard Accounting, Budget, and
Reporting System.




                                              12
Commandant of the Marine Corps Comments
The Commandant of the Marine Corps agreed with the recommendation , stating that the
Marine Corps separately identifies supplemental, bridge, and annual funds in the
accounting system for investment appropriations and that obligations against each
funding source for these appropriations are tracked. The Commandant stated that
beginning in FY 2009, the Marine Corps plans to allocate Operations and Maintenance,
Marine Corps/Operations and Maintenance, and Marine Corps Reserve funds to budget
officers by funding source and require budget officers to separately obligate the funds by
source.

On behalf of the Commander, Marine Corps Systems Command (the Command), the
Deputy Commander stated that in early FY 2007, the Command changed its practice of
mixing baseline, bridge, and supplemental funds. Before the change in practice, the
Deputy Commander stated that the Command reprogrammed annual funds to make up for
shortfalls in supplemental accounts, and that generally, the Command identified GWOT
funding sources for GWOT reprogramming requirements. In addition, the Deputy
Commander stated that the Command did not add supplemental funds to baseline funds
for programs of record. Further, the Deputy Commander listed several controls that the
Command uses to track appropriations and minimize the risk of inappropriately using
funds. These controls include assigning a different line of accounting to each type of
funding, using Special Interest Codes, and verifying that funds coded with a Special
Interest Code were used in recording GWOT obligations.

Our Response
The Command’s change of practice in early FY 2007 to not mix baseline, bridge, and
supplemental funds is commendable and partially meets the intent of the
recommendation. To fully be responsive to the recommendation, the Deputy
Commander needs to issue SOPs that formally implement the change in practice.
Accordingly, we request that the Office of the Commandant of the Marine Corps, in
coordination with the Deputy Commander, Marine Corps Systems Command, provide
additional comments on the recommendation in response to the final report.

Director, Financial Management Directorate, Washington
Headquarters Services
The Acting Director, Financial Management Directorate, Washington Headquarters
Services agreed with the recommendation. The director stated that the SOPS will be
issued as an Administrative Instruction and ready for signature in March 2009.

Our Response
The director’s comments were responsive to the recommendation.




                                            13
PAGE LEFT INTENTIONALLY BLANK




             14
Appendix A. Scope and Methodology
We conducted this audit from August 2006 through March 2009, in accordance with
generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.

During the audit we evaluated whether the Army, Navy, Marine Corps, Defense-wide
agencies, National Guard, and Reserve Components had adequate financial controls over
the use of GWOT supplemental and bridge funding provided for procurement and
RDT&E to determine whether the funds were placed on contracts and used for the
purposes stipulated by Congress.

Documentation and Information Reviewed
To accomplish the audit objective, we reviewed the following documentation and
information dated from July 2002 through December 2007:

      procurement and RDT&E supplemental and bridge funds in Public Law 107-206,
       “2002 Supplemental Appropriations Act for Further Recovery From and
       Response to Terrorist Attacks on the United States,” August 2, 2002; Public
       Law 108-11, “Emergency Wartime Supplemental Appropriations Act, 2003,”
       April 16, 2003; Public Law 108-106, “Emergency Supplemental Appropriations
       Act for Defense and for the Reconstruction of Iraq and Afghanistan, 2004,”
       November 6, 2003; Public Law 108-287, “Department of Defense Appropriations
       Act, 2005,” August 5, 2004; Public Law 109-13, “Emergency Supplemental
       Appropriations Act for Defense, the Global War on Terror, and Tsunami Relief,
       2005,” May 11, 2005; and Public Law 109-148, “Department of Defense,
       Emergency Supplemental Appropriations to Address Hurricanes in the Gulf of
       Mexico, and Pandemic Influenza Act, 2006,” December 30, 2005;

      procurement and RDT&E supplemental and bridge funds in Conference
       Report 107-593, “Making Supplemental Appropriations for Further Recovery
       From and Response to Terrorist Attacks on the United States for the Fiscal Year
       Ending September 30, 2002, and for Other Purposes,” July 19, 2002; Conference
       Report 108-76, “Making Emergency Wartime Supplemental Appropriations for
       the Fiscal Year 2003, and for Other Purposes,” April 12, 2003; Conference
       Report 108-337, “Making Emergency Supplemental Appropriations for Defense
       and for the Reconstruction of Iraq and Afghanistan for the Fiscal Year Ending
       September 30, 2004, and for Other Purposes,” October 30, 2003; Conference
       Report 108-622, “Making Appropriations for the Department of Defense for the
       Fiscal Year Ending September 30, 2005, and for Other Purposes,” July 20, 2004;
       Conference Report 109-72, “Making Emergency Supplemental Appropriations for



                                           15
       the Fiscal Year Ending September 30, 2005, and for Other Purposes,” May 3,
       2005; and Conference Report 109-359, “Making Appropriations for the
       Department of Defense for the Fiscal Year Ending September 30, 2006, and for
       Other Purposes,” December 18, 2005;

      financial documents relating to GWOT supplemental and bridge funds including
       investment program/fund approvals for direct obligations, funding authorization
       documents, procurement program releases for direction obligations, funding
       allowance documents, program directive change requests for procurement,
       program authorization documents, resource realignment documents,
       reprogramming actions, military interdepartmental purchase requests, acceptance
       of military interdepartmental purchase requests, purchase requests, and
       procurement work directives; and

      contractual documents for obligating GWOT supplemental and bridge funds
       including modifications of contract and orders for supplies or services.

Staff Contacted
We contacted the staffs of the Under Secretary of Defense Comptroller, Assistant
Secretary of the Army (Financial Management and Comptroller), Assistant Secretary of
the Navy (Financial Management and Comptroller), Marine Corps Systems Command,
U.S. Special Operations Command (Comptroller), Missile Defense Agency, Defense
Information Systems Agency, Joint Program Executive Office for Chemical and
Biological Defense, Washington Headquarters Services, TACOM Life Cycle
Management Command, Communications Electronics Lifecycle Management Command,
Program Executive Office Soldier, Program Executive Office Ammunition, Program
Executive Office Missiles and Space, Project Manager Apache, U.S. Army Corps of
Engineers, Naval Sea Systems Command, Naval Air Systems Command, Field Support
Activity, Military Sealift Command, Army National Guard Comptroller and Materiel
Programs Division, Office of the Chief Army Reserve, Air National Guard Plans and
Requirements Division, Warner Robins Air Logistics Center, and Oregon Air National
Guard 125th Special Tactics Squadron to determine whether the DoD Components were
maintaining effective financial controls over the use of GWOT supplemental funding
provided for procurement and RDT&E, and whether the funds were placed on contracts
and used for the purposes stipulated in the congressionally approved supplemental
funding for GWOT.

Audit Methodology
The audit team used computer-generated accounting reports, which listed the
commitment transactions applicable to our line items, to determine which commitment
documents pertained to our sample dollar points. The team arranged the commitment
transactions in date order. If multiple transactions had the same date, the audit team
arranged the transactions documents in alpha-numeric order based on the document
number. For accounting systems that could not generate commitment transactions by
date, the audit team arranged the transactions in the order they appeared on the



                                           16
accounting report. When accounting reports were not available, the audit team collected
the source documents applicable to the line items and arranged them in date order. The
audit team used the dollar value of each commitment transaction to develop a running
total of the funds committed to the line item. The running total added or subtracted the
amount of each transaction to the previous transaction. The audit team used the running
total as a means for establishing a continuous dollar range for the commitment
transactions. We determined which commitment documents applied to the sample dollar
points based on the dollar ranges that included the sample dollar points. If the sample
dollar point was committed but not put on contract yet, the fund status was committed.
If the funds were committed and put on contract, the fund status was obligated. If the
sample dollar point was not committed, meaning that the total of continuous range was
less than the sample dollar point, the fund status was unobligated. If the sample dollar
point was obligated on a contract with multiple contract line item numbers, we
determined which contract line item number contained the sample dollar point using the
methodology just described.

In conducting the statistical sample, we excluded classified programs and efforts from the
universe of GWOT appropriations. We concluded that the use of the audit results would
be limited if we issued a classified report. The scope of this audit did not include the
procurement and RDT&E funds provided to DoD under Public Law 109-234,
“Emergency Supplemental Appropriations Act for Defense, the Global War on Terror,
and Hurricane Recovery, 2006,” June 15, 2006, because when we started the audit, in
August 2006, DoD had obligated less than 35 percent of the procurement and RDT&E
funds. Consequently, the audit results would be distorted if we included this
supplemental appropriation in the sample universe.

In May 2007, the audit scope and sampling methodology changed from a statistical
sample to a judgmental sample. The audit scope changed because after reviewing the
28 Air Force sample dollar points, we determined that the same issues identified with the
Air Force would probably occur for the remaining dollar points at the other DoD
Components, based on preliminary results of our review of those transactions. As a
result, instead of reviewing 600 sample dollar points with the statistical sample, we
reviewed 158 sample dollar points as part of the judgmental sample. The 28 Air Force
sample dollar points are discussed in the DoD Inspector General Report No. D-2008-027,
“Air Force Use of Global War on Terror Supplemental Funding Provided for
Procurement and Research, Development, Test, and Evaluation,” November 21, 2007.
This report discusses the remaining 130 sample dollar points. For a detailed discussion
of the statistical and judgmental sampling methodologies, see Appendix B.

We were not able to trace the supplemental and bridge funds to commitment and
obligation documents for indeterminable sample dollar points. As a result, we did not
request source documents for these sample dollar points; therefore, we did not review the
documents to determine whether they had special program codes identifying the funds as
supplemental or bridge funds.




                                           17
Use of Computer-Processed Data
We used accounting reports generated from the General Accounting and Finance System;
Oracle Financial Management System; Standard Accounting, Budgeting, and Reporting
System; Standard Finance System; Standard Operation and Maintenance Army Research
and Development System; and Washington Headquarters Services Allotment Accounting
System. We did not perform a formal reliability assessment of the computer-processed
data because it was used only to execute our methodology for identifying which
commitment transactions were associated with the sample dollar points. The
computer-processed data was not used to support the finding, conclusions, or
recommendations. We determined that using the computer-processed data from the
accounting reports would not affect the reliability of the audit.

Use of Technical Assistance
The Quantitative Methods and Analysis Division within the DoD Office of Inspector
General assisted the audit team in conducting statistical and judgmental samples. For a
detailed discussion of the statistical and judgmental sampling methodologies, see
Appendix B.

Prior Coverage
During the last 5 years, the GAO, DoD IG, and Air Force Audit Agency (AFAA) issued
10 reports discussing supplemental funding authorized and obligated for the Global War
on Terror. Unrestricted GAO reports can be accessed over the Internet at
http://www.gao.gov. Unrestricted DoD IG reports can be accessed at
http://www.dodig.mil/audit/reports. Unrestricted Air Force reports can be accessed at
http://www.afaa.hq.af.mil.

GAO
GAO Report No. GAO-08-853R, “Global War on Terrorism: Reported Obligations for
the Department of Defense,” June 13, 2008

GAO Report No. GAO-07-783R, “Global War on Terrorism: Reported Obligations for
the Department of Defense,” May 18, 2007

GAO Report No. GAO-06-885T, “Global War on Terrorism: Observations on Funding,
Costs, and Future Commitments,” July 18, 2006

GAO Report No. GAO-05-882, “Global War on Terrorism: DoD Needs to Improve the
Reliability of Cost Data and Provide Additional Guidance to Control Costs,” September
2005

GAO Report No. GAO-04-915, “Military Operations: Fiscal Year 2004 Costs for the
Global War on Terrorism Will Exceed Supplemental, Requiring DoD to Shift Funds
From Other Uses,” July 2004




                                           18
GAO Report No. GAO-04-668, “Military Operations: DoD’s Fiscal Year 2003 Funding
and Reported Obligations in Support of the Global War on Terrorism,” May 2004

GAO Report No. GAO-03-346, “Defense Budget: Tracking of Emergency Response
Funds for the War on Terrorism,” April 2003

DoD IG
DoD IG Report No. D-2009-058, “DoD Cost of War Reporting of Supplemental Funds
Provided for Procurement and Research, Development, Test, and Evaluation,”
February 27, 2009

DoD IG Report No. D-2008-027, “Air Force Use of Global War on Terrorism
Supplemental Funding Provided for Procurement and Research, Development, Test, and
Evaluation,” November 21, 2007

Air Force
AFAA Report No. F2005-0011-FB1000, “Global War on Terrorism Funds
Management,” June 20, 2005




                                        19
PAGE LEFT INTENTIONALLY BLANK




             20
Appendix B. Sampling Methodology
Statistical Sampling Methodology
Sampling Objectives
The purpose of the statistical sampling was to select sample dollar points from the
population of the GWOT supplemental appropriations provided for procurement and
RDT&E activities and trace those sample dollar points through the appropriation,
commitment, and obligation processes to determine whether they were obligated in
support of GWOT and whether they were obligated as stipulated in the congressionally
approved supplemental and bridge appropriations.

Population
The population of the sample consisted of six GWOT supplementals that Congress
appropriated from August 2002 through December 2005. Public Law 107-206, Public
Law 108-11, Public Law 108-106, Public Law 108-287, Public Law 109-13, and Public
Law 109-148 enacted the six supplementals. The population totaled $28,685,407,000,
after the audit team excluded funding for classified programs and efforts.

Sample Design
For this sample, each population unit was a dollar point between 1 and 28,685,407,000.
The sample design used a sampling technique in which each population unit (dollar
point) had a probability of being selected that was proportional to its recorded amount,
which was the total amount of the conference report line item it fell on. The advantage to
using that sampling technique was that the larger recorded amounts had a higher
probability of being selected than units with smaller recorded amounts. For example, a
conference report line item totaling $450 million would have a higher probability of
having a population unit (dollar point) selected than a conference report line item totaling
$20 million would. The sample design called for using 95 percent confidence level for
statistical projection.

Sample Size
To determine which population unit to sample, statisticians from the Quantitative
Methods and Analysis Division aggregated the dollar values for the supplemental
appropriations by location, arranged them in descending order, and computed a running
sum of the dollar values for the supplemental appropriations. The statisticians randomly
generated 600 numbers without replacement between 1 and 28,685,407,000 and
correlated each random number to the corresponding dollar point for the running sum of
the supplemental dollar values. They then determined which location corresponded to
each of the 600 resulting dollar points. The distribution of the 600 dollar points was
361 for the Army, 156 for the Navy and Marine Corps, 28 for the Air Force, and 55 for
the National Guard and Defense agencies.




                                            21
Sample Result Categories
We initially anticipated issuing a summary report that projected the sample results across
DoD in three main categories. Specifically, we planned to determine whether the DoD
obligated the funds:

      in support of GWOT;
      as stipulated in the congressionally approved supplementals and bridges; or
      for indeterminable purposes because the sample dollar points were commingled
       with annual and other supplemental appropriations, commingled with other
       conference report line-items, or because of insufficient audit documentation.

Change in Sample Methodology
At the completion of our review of Air Force transactions, we decided to use a
judgmental sample instead of continuing with a statistical sample to complete the overall
DoD Component audit because we determined that the same issues associated with the
Air Force would probably occur for the remaining dollar points based on preliminary
results of our review of transactions at the other DoD Components. As a result, the
results of the judgmental sample will not be projectable across DoD.

Judgmental Sampling Methodology
Sampling Objectives
The purpose of the judgmental sample was to select sample dollar points from the
statistical sample. We traced those sample dollar points through the appropriation,
commitment, and obligation processes to determine whether they were obligated in
support of the GWOT and whether they were obligated as stipulated in the
congressionally approved supplemental and bridge appropriations.

Population
The population of the judgmental sample consisted of the 572 statistical sample dollar
points selected for the Army, Navy, Marine Corps, Defense-wide agencies, National
Guard, and Reserve Components from 6 GWOT supplementals that Congress
appropriated from August 2002 through December 2005. Public Law 107-206, Public
Law 108-11, Public Law 108-106, Public Law 108-287, Public Law 109-13, and Public
Law 109-148 enacted the six supplementals. The other 28 of the 600 statistical sample
dollar points were discussed in DoD IG Report No. D-2008-027, “Air Force Use of
Global War on Terrorism Supplemental Funding Provided for Procurement and
Research, Development, Test, and Evaluation,” November 21, 2007.

Sample Size
For the purposes of selecting the number of judgmental sample dollar points, we formed
the following three DoD Component groups: Army; Navy and Marine Corps; and
Defense-wide agencies, National Guard, and Reserve Components. We decided to use
those DoD Component groups because that was how we anticipated reporting the results



                                            22
of the statistical sample dollar points. To determine the number of judgmental sample
dollar points to select for each DoD group, statisticians from the Quantitative Methods
and Analysis Division created a scale based on the number of statistical sample dollar
points selected for each DoD group, as shown in the following table.

Table B-1. Statistical Sample Dollar Point Range for Determining Number of
Judgmental Sample Dollar Points for Each DoD Component Group

                    Number of Statistical               Number of Judgmental
                    Sample Dollar Points                 Sample Dollar Points

                               0–100                                30

                            101–200                                 40

                            201–300                                 50

                                >300
                                l                                   60


The following table shows the DoD Component groups and the number of judgmental
sample dollar points we chose for those groups.


Table B-2. Number of Judgmental Sample Dollar Points Selected for DoD
Component Groups

                                                                               Number of
                                             Number of Statistical             Judgmental
        DoD Component Group                  Sample Dollar Points             Sample Dollar
                                                                                 Points

     Army                                                361                         60

     Navy and Marine Corps                               156                         40

     Defense-wide agencies,
     National Guard, and Reserve
     Components                                           55                         30


In May 2007, when we decided to use a judgmental sample, we had already completed 36
of the statistical sample dollar points for the Army. However, 9 of those 36 sample dollar
points did not provide any additional information.1


1
 We determined that a sample dollar point would not provide any additional information if it was
appropriated for the same purpose and obligated on the same contract and contract line item number as
another sample dollar point.


                                                   23
We chose 361 dollar points for the Army in the statistical sample. To determine the
judgmental sample, we performed the following steps for the 325 dollar points that were
not complete as of the date the judgmental sample was conducted:

       used a random number generator to assign a random number to each of those
        325 points, and then

       sorted those sample dollar points, in ascending order, based on that random
        number.

Starting at the top of the randomly sorted Army list, we chose 33 sample dollar points,2
the number needed to satisfy the 60 judgmental sample dollar points for the Army as
determined by the range shown in Table C-1. If a judgmentally selected sample dollar
point did not provide any additional information or was used for a classified program or
effort, we removed that sample dollar point from the judgmental sample and selected a
replacement sample dollar point from the randomly sorted Army list.

We followed the same methodology for the Navy and Marine Corps Component group
and the Defense-wide agencies, National Guard, and Reserves Component group.

Sample Result Categories
We determined whether DoD obligated the funds:

       in support of GWOT;

       as stipulated in the congressionally approved supplementals and bridges; or

       for indeterminable purposes because the sample dollar points were commingled
        with annual appropriations, commingled with other conference report line-items,
        or because of insufficient audit documentation.




2
  Although 36 Army statistical sample dollar points were complete as of May 2007, 9 of those did not
provide any additional information and were removed from the judgmental sample. Therefore, we chose
33 additional Army sample dollar points to satisfy the 60 judgmental sample dollar points as determined by
the range, as shown in Table C-1.


                                                   24
PAGE LEFT INTENTIONALLY BLANK




             25
Appendix C. Apportionment Process for
Supplemental and Bridge Funds
The following chart illustrates the OUSD(C) apportionment process for GWOT
supplemental and bridge funds. We compiled the figure based on meetings with the
OUSD(C). The chart’s key can be found in the upper right hand corner of the page.
According to an OUSD(C) representative the following process is followed for the
apportionment of supplemental and bridge funds. The apportionment process begins
when Congress provides its Conference Report to the President for approval. When the
President signs the conference report into law, DoD is given the authority to distribute the
funds. Once OUSD(C) receives the conference report and the public law, it extracts the
apportionment values by subcategory and issues an apportionment request to the Office
of Management and Budget. The Office of Management and Budget checks the values,
applies spending restrictions as necessary, and approves the apportionment request. On
receipt of the approved apportionment request, the OUSD(C) Investment Directorate
issues funds to the DoD Components by line item totals, makes sure detailed line items
reconcile, and as necessary, withholds apportionment until congressional requirements
are met. The DoD Components receive the supplemental funds electronically from the
OUSD(C), Investment Directorate on a Form 440 issued through the Program Budget and
Accounting System.




                                            26
OUSD(C) Flowchart
                                                             KEY FOR OUSD(C) APPORTIONMENT PROCESS

                The conference report is the                 = Congressional Documents
 Conference
  Report        basis for the public law.                    = Office of the Under Secretary of Defense (Comptroller)
                                                             = Office of Management and Budget
                                                             = DoD Components
                Public         Signed by the President
                 Law           (gives the DoD authority
                               to distribute funds)




           Office of the Under
                                                          SF 132                      Office of Management
           Secretary of Defense
                                                                                           and Budget
              (Comptroller)
         Extracts apportionment                     Apportionment                    Checks values on
         values* from the                             Request                        SF 132, asks questions,
         Conference Report by                                                        may add spending
         subcategory                                                                 restrictions, then
                                                                                     approves apportionment
         *NOTE – The Army and Navy
                                                                                     request
         extract their own values from the
         Conference Report and forward them
         to the OUSD (Comptroller). The
         OUSD (Comptroller) then adds the
         extracted Defense-wide amounts.
                                                          SF 132


                                                    Apportionment
      OUSD (Comptroller),                             Request
     Investment Directorate

     Issues funds by
     conference report line
     item, may withhold                        SF 440                                            DoD
     apportionment until                                        The OSD(C) uses the           Components
     congressional                                              SF 440 to distribute funds
     requirement is met               Investment Program/       to DoD Components.
                                       Fund Approval for
                                        Direct Obligation




                                                        27
PAGE LEFT INTENTIONALLY BLANK




             28
Appendix D. Glossary
Bridge Funds
Bridge funds are emergency supplemental funds that are added to the regular annual
appropriation bill to pay a portion of the incremental funds needed for emergency
operations. Generally, bridge funds are in a separate title of the appropriation, usually
Title IX.

Budget Authority
Budget authority is provided by Congress and allows Government agencies to enter into
obligations that will result in immediate or future outlays. It may be classified by the
period of availability, by the timing of congressional action, or by the manner of
determining the amount available.

Commitment
The Defense Acquisition University Glossary defines commitment as an administrative
reservation of funds by the comptroller in anticipation of an obligation.

Contingency Operation
A contingency operation is a military operation that is designated by the Secretary of
Defense as an operation in which members of the armed forces are or may become
involved in military actions, operations, or hostilities against an enemy of the United
States or against an opposing military force. A contingency operation is also considered
a call or order to, or retention on, active duty of members of the uniformed services
during a war or during a national emergency declared by the President or Congress.

DoD Components
The DoD Components, as referred to in this report, are the Army, Navy, Marine Corps,
U.S. Special Operations Command, Chemical and Biological Defense Office, Defense
Information Systems Agency, Missile Defense Agency, Washington Headquarters
Service, Army National Guard, Air National Guard, and Army Reserves.

Obligation
The Defense Acquisition University Glossary defines an obligation as a duty to make a
future payment of money. The duty is incurred as soon as an order is placed or a contract
is awarded for the delivery of goods and the performance of services. An obligation is a
specified sum of money that will require expenditures in the future.

Operation Enduring Freedom
Operation Enduring Freedom is the continuing United States effort to track down
terrorists and provide stability, primarily in Afghanistan, but also in the Republic of the
Philippines and Cuba. The military objectives of Operation Enduring Freedom include
denying terrorist organizations access to training camps and infrastructure, capturing Al


                                             29
Qaeda leaders and fighters, stopping terrorist activities against the United States and its
allies, and preventing the re-emergence of international terrorist organizations. In
Afghanistan, the objectives include destroying the remaining Taliban and Al Qaeda
organization, training the Afghan National Army, conducting civil-military operations,
and providing support for the emerging government of Afghanistan. In Cuba, the United
States continues to hold terrorist detainees at Guantanamo Bay in order to obtain tactical
intelligence on current and future terrorists operations, remove Al Qaeda and Taliban
terrorists from the battlefield, and facilitate prosecution of those who have committed
crimes.

Operation Iraqi Freedom
Operation Iraqi Freedom is the continuing United States efforts to stabilize Iraq, conduct
stability and support operations throughout Iraq, capture Hussein regime loyalists, and
stop terrorists from using Iraq as a staging area for terrorism activities.

Operation Noble Eagle
Operation Noble Eagle is the continuing United States efforts to defend the United States
from airborne attacks and maintain United States air sovereignty.

Procurement
The Defense Acquisition University Glossary defines procurement as the act of buying
goods and services for the Government.

Research, Development, Test, and Evaluation
Research, development, test, and evaluation activities and funding are used to develop
new systems or expand the performance of fielded systems.

Supplemental Appropriation
Supplemental appropriations are approved by Congress and enacted by the President as
an addition to a regular annual appropriation. Supplemental appropriations provide
additional budget authority beyond original estimates for programs or activities that are
too urgent to be postponed until the next regular annual appropriation.




                                            30
Appendix E. Management Comments on the
Finding and Appendices and Our Response
Our detailed response to the comments from the Office of the Under Secretary of Defense
and the Marine Corps Systems Command on the draft report finding and appendices of
this report follow. The complete text of those comments can be found in the
Management Comments section of this report.

Office of the Under Secretary of Defense Comments
In a meeting with audit staff on October 9, 2008, the Director, Investments Directorate,
OUSD(C) provided additional comments to clarify his office’s position on the
recommendation in the draft of this report. He stated that the DoD IG indicated that their
office could not track supplemental funds for sub-line items for procurement (P-1) and
RDT&E (R-1) funding released to the DoD Components when those sub-lines were
combined with the existing P-1 and R-1 budget structure. The director stated that this
situation occurs when Congress appropriates funds into nonexistent program funding
lines and the OUSD(C) staff, working with the executing DoD Components, aligns the
funds into existing program funding lines. He stated that this does not occur often.
However, when it does occur, it is necessary for his office to ensure that the funds are
issued to the correct destination, can be tracked during execution, and will not cause an
administrative or contractual obstruction

At the meeting, the audit team provided the director an example of where his office did
not separate GWOT supplemental and bridge appropriations by conference report line
item on the funding documents issued to the DoD Components. In the example from the
FY 2006 conference report, the funding document issued to the Navy from the
Investments Directorate, OUSD(C) showed that all funding for the Navy’s AH-1W
helicopter procurement program, which included conference report line items for the
AH-1W Increased Survivability, $6.6 million; AH-1 Turned Exhaust, $15.9 million; and
AH-1 Turned Exhaust (spares), $1.3 million, were combined into one budget line, the
Navy AH-1W Series project line in Aircraft Procurement, Navy. In response, the director
stated that the audit team would want the Investments Directorate, OUSD(C) to issue the
supplemental funds in three distinct budget lines, to correspond with the conference
report. The director stated that he understood that it would be easier to track the
supplemental funding if the funds were released in separate funding lines; however, that
would have created an unreasonable administrative burden on the Navy’s program office,
and possibly result in changing production contracts, delaying obligations, and imposing
problems in tracking obligations and expenditures for the AH-1 program. Despite the
fact that the funds were issued in one budget line item, he stated that the Navy program
office was fully aware of the congressional intent and executed the funds as directed by
the Congress. The director further cited a situation that occurred in FY 2009, when
Congress appropriated $56.0 million for Dry Bridge Support program. Because no
budget line existed for that program, he stated that the Army requested that the funds be
realigned to the existing Tactical Bridging program budget line for execution. The


                                            31
director stated that the Army plans to follow congressional intent when executing the
funds, but needs the funding moved to the correct Other Procurement, Army budget line
for Tactical Bridging to ensure proper execution. Similarly, he stated that his office had
to do this for a conference report line item for Tactical Radios, $4.9 million, which had to
be realigned to the budget line for Radio, Improved HP (COTS) Family. The director
reiterated that the congressional intent will be adhered to. In conclusion, he stated that
the guidance section of the Form 440 references the public law from which the funds
were enacted and he believes that no additional clarification is required from his office
for the program office to follow congressional direction.

Our Response
We agree with the director and recognize that Congress sometimes appropriates funds
using program funding lines that do not exist. In those situations, we further understand
that the OUSD(C) must provide those funds to the DoD Components as part of an
existing program budget line. However, in situations when the GWOT funds for
different conference report line items are combined into one amount, the audit trail
disappears when they are issued to the DoD Components.

The FMR states that financial transactions should be supported with documentation that
permits transactions to be traced to source records. Further, because conference reports
and public law express the intent of the Congress and the President, it is critical that an
audit trail be maintained to ensure that appropriated funds are used in accordance with the
congressional language. It is not our intention that the creation of such audit trails be so
complex that they impact production contracts, delay obligations, or impose other
problems for OUSD(C) or the DoD Components. As such, we identified several alternate
methods to developing and maintaining an audit trail, which we discussed during our
October 9, 2008, meeting. For example, the OUSD(C) could either include remarks
directly on the Form 440 itself or include an attachment to the Form 440 that explains
which conference report line items were combined and identifies the amount of funding
provided for each line item. Thereby, when the Form 440s are subsequently issued to the
DoD Components, the DoD Components would be fully aware of which efforts received
congressional funding, could appropriately execute those funds, and could maintain audit
trails to ensure that appropriated funds are accurately obligated and reported.

Because the public law does not provide a detailed listing of the line items receiving
funds and the amount of funds each line item received, citing the public law on the Form
440 will not ensure that funds on the Form 440 are obligated as authorized by Congress.
An acceptable alternative would be to reference the conference report on the Form 440
which does provide a detailed listing of the line items receiving funds and the amount of
funds each line item received.

Without OUSD(C) providing this level of detail to the program offices, DoD has no
assurance that the program offices will implement the intent of congressional direction.
In summary, the OUSD(C) and the DoD Components must be held accountable for using
GWOT funds appropriately. To achieve this objective, OUSD(C) and DoD Components
need their accounting systems to provide transparency and the assurance that the funds


                                            32
are being used for the purposes stipulated by Congress. By maintaining transparency in
accounting systems, the DoD Components will also be able to accurately report to
Congress their progress in obligating GWOT funds.

Management Comments on Apportionment Process
Flowchart and Our Response
Office of the Under Secretary of Defense Comments
The Director, Investments Directorate, Office of the Under Secretary of Defense
(Comptroller) stated that the OUSD(C) apportionment process flowchart was not
accurate. He stated that funds are not issued by line item total; they are issued by
individual conference report line item. The director stated that the Form 440 is used to
issue funds to the Services and that the Program Budget and Accounting System is used
to issue funds to the Defense-wide agencies. He stated that the Program Budget and
Accounting System is not an electronic version of a Form 440.

Our Response
The audit team contacted the OUSD(C) regarding these comments and made the
appropriate revisions to the OUSD(C) apportionment process flowchart in Appendix C.




                                           33
PAGE LEFT INTENTIONALLY BLANK




             34
Office of the Under Secretary of Defense (Comptroller)
Comments




                    Click to add JPEG file




                                   35
Click to add JPEG file




               36
Click to add JPEG file




               37
Click to add JPEG file




               38
Click to add JPEG file




               39
Click to add JPEG file




               40
Click to add JPEG file




               41
Click to add JPEG file




               42
Click to add JPEG file




               43
Click to add JPEG file




               44
Click to add JPEG file




               45
Click to add JPEG file




               46
Click to add JPEG file




               47
Click to add JPEG file




               48
Click to add JPEG file




               49
                         Final Report
                          Reference




Click to add JPEG file




                               Page 27




               50
Click to add JPEG file




               51
Click to add JPEG file




               52
Department of the Army Comments




                  Click to add JPEG file




                                 53
Click to add JPEG file




               54
Department of the Navy Comments




                  Click to add JPEG file




                                 55
Click to add JPEG file




               56
Marine Corps Comments




                 Click to add JPEG file




                                57
Click to add JPEG file




               58
Click to add JPEG file




               59
Click to add JPEG file




               60
Click to add JPEG file




               61
Washington Headquarters Services Comments




                  Click to add JPEG file




                                 62
